1a
APPENDIX A
In the Supreme Court of Iowa
STATE of Iowa, Appellee,
v.
Jane DOE, Appellant.
No. 18-1366
Filed May 10, 2019
WATERMAN, Justice.
This appeal presents a facial constitutional challenge to Iowa Code section 901C.2 (2018), the expungement statute enacted in 2016, which creates a
statutory right to expungement, subject to several
conditions, including payment of all court-imposed
costs and fees. An indigent defendant was denied
expungement in this case for failure to pay off her
court-appointed attorney fees. She argues that condition violates the Equal Protection Clauses of the
Federal and Iowa Constitutions because defendants
who owe fees to privately retained attorneys can expunge their criminal records, while defendants owing court-appointed attorney fees cannot. The district court rejected her constitutional challenge and
denied her motion to expunge her record. We retained her appeal.
On our review, we affirm. There is no constitutional right to expunge one’s criminal record. The
legislature created a statutory right subject to conditions. This equal protection claim does not involve a
fundamental right or suspect class, so we apply rational basis review. The legislature could reasonably
condition expungement on payment of costs in order
to incentivize defendants to satisfy court debt. The

2a
facial constitutional challenge fails.
I. Background Facts and Proceedings.
On April 29, 2009, police responded to a 911 call
at 3 a.m. reporting that a man was holding a woman
at knifepoint at a duplex on Southwest Third Street
in Des Moines. Witnesses told officers that the man
fled the residence from an upstairs rear window. Officers checked the area but found no suspect and noticed the windows were closed on the back side of the
house and the grass below looked undisturbed.
The officers decided to enter the residence to find
the man with the knife. They encountered Jane Doe
at the front door. Doe identified herself as the victim
but stood in the entryway and told officers she did
not want them to come in. Doe blocked the door, refused the officers’ requests to step aside, and shoved
them as they entered. The officers physically removed Doe from the doorway, handcuffed her, and
placed her in a squad car while they searched the
residence.
The officers found a man inside hiding in a closet.
They learned that Doe had told witnesses to lie
about what had happened and to report falsely that
the man who assaulted her had jumped out the rear
window to get away. The witnesses’ descriptions
matched the man in the closet. Doe then told police
that she and the man—the father of her child—
began arguing after he received a phone call from
another woman. Doe said she became upset, pulled a
knife on him, and bit his finger. Doe was arrested.
Doe was charged by trial information with one
count of domestic abuse assault with a dangerous
weapon in violation of section 708.2A(2)(c) (2009)

3a
and one count of assault on a police officer in violation of section 708.3A(4). Doe submitted a financial
affidavit and requested a court-appointed attorney to
represent her. Doe’s affidavit stated that she was a
single mother supporting one child and her only
source of income was $250 monthly for food assistance. The court found that Doe was unable to pay
for an attorney and appointed one to represent her.
On August 3, Doe’s court-appointed attorney filed
a motion to withdraw and informed the court that
Doe and the State had reached an agreement whereby if Doe successfully completed a family violence
class by September 15, the State would dismiss the
charges against her. The court approved the attorney’s withdrawal and appointed another attorney to
represent Doe.
Doe successfully completed the class. The State
filed a notice of intent not to prosecute, which stated
that costs would be assessed to Doe. The district
court entered an order dismissing the charges without prejudice and assessed Doe $718 in costs, all for
her court-appointed attorney fees. The record is silent as to whether the district court determined Doe
had a reasonable ability to pay those costs at that
time. Doe did not object to, nor did she appeal, the
cost assessment.
Nearly a decade later, and two years after the legislature enacted section 901C.2, Doe filed a motion to
expunge this case from her criminal record. Doe still
owed $550 of the court debt when she sought expungement, having paid $168. She raised a facial
constitutional challenge to the statutory requirement that she pay all assessed court costs as a condition for expungement. She did not ask the district

4a
court to determine she had a present inability to pay
the court debt, nor did she ask that the underlying
court debt be extinguished based on the absence of a
judicial finding in 2009 that she then had a reasonable ability to pay the assessed fees.
The district court denied her motion for expungement and rejected her constitutional argument. The
court stated, “In her financial affidavit [in 2009] she
signed a statement that she understood she may be
required to repay the State for attorney fees and
costs.” The district court continued,
[Doe] argues requiring an indigent person to
reimburse attorney fees prior to expungement,
unlike an individual who hired their own counsel, violates the Constitution, specifically due
process and equal protection. The Court rejects
this argument. [Doe] was made aware of the
possibility of reimbursing attorney fees and
that expungement could not occur until all fees
and assessed costs were paid. This was part of
the bargain [Doe] negotiated.
The court noted that Doe “may still obtain expungement if and when the fees are paid.”
Doe appealed, and we retained the case. In her affidavit supporting her motion to waive the appellate
filing fee, Doe attested that she received monthly
food assistance of $500 and $426 monthly from the
Family Investment Program and that she has two
children, with a third due in August 2018. Doe estimated her monthly expenses are $1445. Our court
waived the filing fee.
II. Scope of Review.
We review constitutional challenges to statutes de

5a
novo. State v. Sluyter, 763 N.W.2d 575, 579 (Iowa
2009).
[W]e must remember that statutes are cloaked
with a presumption of constitutionality. The
challenger bears a heavy burden, because it
must prove the unconstitutionality beyond a
reasonable doubt. Moreover, “the challenger
must refute every reasonable basis upon which
the statute could be found to be constitutional.”
Furthermore, if the statute is capable of being
construed in more than one manner, one of
which is constitutional, we must adopt that
construction.
State v. Seering, 701 N.W.2d 655, 661 (Iowa 2005)
(quoting State v. Hernandez-Lopez, 639 N.W.2d 226,
233 (Iowa 2002)), superseded by statute on other
grounds, 2009 Iowa Acts ch. 119, § 3 (codified at Iowa Code § 692A.103 (Supp. 2009)), as recognized in
In re T.H., 913 N.W.2d 578, 587–88 (Iowa 2018).
III. Analysis.
A. Iowa’s Dismissal–Acquittal Expungement
Statute. There is no constitutional right to expunge
one’s criminal record. See Judicial Branch v. Iowa
Dist. Ct., 800 N.W.2d 569, 579 (Iowa 2011), superseded by 2015 Iowa Acts ch. 83, § 1 (codified at Iowa
Code § 901C.2 (2016) (creating a limited statutory
right to expunge certain criminal records)); see also
Sealed Appellant v. Sealed Appellee, 130 F.3d 695,
699 (5th Cir. 1997) (“There is no constitutional basis
for a ‘right to expungement.’”); Duke v. White, 616
F.2d 955, 956 (6th Cir. 1980) (per curiam) (“The
right to expungement of state records is not a federal
constitutional right.”). Expungement is a matter of

6a
legislative grace. Prior to 2016, individuals acquitted
of a crime or whose criminal charges were dismissed
could not expunge the charges from their criminal
records. On January 1, 2016, Iowa’s first dismissal–
acquittal expungement law took effect. With clarifying amendments, the current version of the law took
effect in July 2016. 1 Iowa Code section 901C.2 (2018)
gives individuals who were acquitted or had their
charges dismissed the opportunity to expunge the
criminal case from their criminal record. Section
901C.2(1) provides,
1. a. Except as provided in paragraph “b”,
upon application of a defendant or a prosecutor
in a criminal case, or upon the court’s own motion in a criminal case, the court shall enter an
order expunging the record of such criminal
case if the court finds that the defendant has
established that all of the following have occurred, as applicable:
(1) The criminal case contains one or more
criminal charges in which an acquittal was entered for all criminal charges, or in which all
criminal charges were otherwise dismissed.
(2) All court costs, fees, and other financial
obligations ordered by the court or assessed by
the clerk of the district court have been paid.
(3) A minimum of one hundred eighty days
have passed since entry of the judgment of acquittal or of the order dismissing the case relating to all criminal charges, unless the court
The amendments did not change any of the conditions for expungement, so we will use the most recent version of the statute in this opinion.
1

7a
finds good cause to waive this requirement for
reasons including but not limited to the fact
that the defendant was the victim of identity
theft or mistaken identity.
(4) The case was not dismissed due to the defendant being found not guilty by reason of insanity.
(5) The defendant was not found incompetent
to stand trial in the case.
b. The court shall not enter an order expunging the record of a criminal case under paragraph “a” unless all the parties in the case have
had time to object on the grounds that one or
more of the relevant conditions in paragraph
“a” have not been established.
“This statute was apparently enacted in response to
our decision in Judicial Branch v. Iowa District
Court, which held that existing Iowa laws did not require the removal of information relating to dismissed criminal cases from the courts’ statewide
computerized docket.” State v. Doe, 903 N.W.2d 347,
351 (Iowa 2017); see also Judicial Branch, 800
N.W.2d at 571.
The parties agree that Doe has satisfied all of the
required conditions for expungement except Iowa
Code section 901C.2(1)(a)(2), as Doe has not paid all
outstanding court costs and fees. Notably, Doe does
not ask our court to superimpose a reasonable ability-to-pay determination at the time of expungement. While Doe mounts a facial equal protection
challenge, she also argues she personally is presently indigent and unable to pay the remaining court
costs, which are solely court-appointed attorney fees.
Yet the relief she seeks in her facial challenge is not

8a
limited to presently indigent persons seeking expungement, but rather extends to anyone whose
court debt preventing expungement consists of courtappointed attorney fees. The absence of a finding as
to her own reasonable ability to pay in 2009 is irrelevant to her facial challenge. We turn to this facial
challenge, which the district court rejected.
B. Doe’s Equal Protection Challenge. Doe argues that section 901C.2 violates the Equal Protection Clause of both the United States and Iowa Constitutions by treating indigent defendants with outstanding court-appointed attorney fees differently
than other criminal defendants. 2 “[O]n a basic level,
both constitutions establish the general rule that
similarly situated citizens should be treated alike.”
Lowe’s Home Ctrs., LLC v. Iowa Dep’t of Revenue,
921 N.W.2d 38, 56 (Iowa 2018) (alteration in original) (quoting LSCP, LLLP v. Kay-Decker, 861
N.W.2d 846, 856 (Iowa 2015)).
“We generally consider the federal and state equal
protection clauses to be ‘identical in scope, import,
and purpose.’” Residential & Agric. Advisory Comm.,
LLC v. Dyersville City Council, 888 N.W.2d 24, 50
(Iowa 2016) (quoting War Eagle Vill. Apartments v.
Plummer, 775 N.W.2d 714, 719 (Iowa 2009)). “Unless
a suspect class or a fundamental right is at issue,
equal protection claims are reviewed under the rational basis test.” King v. State, 818 N.W.2d 1, 25
U.S. Const. amend. XIV, § 1 (“No State shall make or enforce
any law which shall ... deny to any person within its jurisdiction the equal protection of the laws.”); Iowa Const. art. I, § 6
(“All laws of a general nature shall have a uniform operation;
the general assembly shall not grant to any citizen, or class of
citizens, privileges or immunities, which, upon the same terms
shall not equally belong to all citizens.”).
2

9a
(Iowa 2012). Doe has not alleged that a fundamental
right or suspect class is at issue. We will apply the
rational basis test consistent with our precedent.
Judicial Branch, 800 N.W.2d at 579 (“Persons who
have had criminal proceedings terminated in their
favor are not a suspect class.”); State v. Dudley, 766
N.W.2d 606, 615 (Iowa 2009) (“[T]he statute governing recoupment of the costs of legal assistance does
not affect a fundamental right or classify on the basis of race, alienage, national origin, gender, or legitimacy” and therefore is “subject to a rational-basis
review.”).
We confront two threshold issues. First, the State
argues that Doe has not shown that similarly situated parties are being treated differently for purposes
of equal protection review. Second, the State argues
that Doe has raised only a disparate impact claim,
which we have said is insufficient to maintain an
equal protection claim. We find both arguments unavailing.
1. Similarly situated. “To allege a viable equal
protection claim, plaintiffs must allege that the defendants are treating similarly situated persons differently.” King, 818 N.W.2d at 24. The State argues
that Doe cannot establish she is similarly situated to
individuals who have paid all of their court costs and
fees, nor can she show that all indigent defendants
are similarly situated because some choose to represent themselves or their cases are dismissed before
court-appointed counsel rendered any billable services.
In our view, the relevant groups to compare are
individuals who owe fees to a private attorney and
those like Doe who owe fees for court-appointed

10a
counsel. Both groups owe attorney fees, yet those owing State court-appointed fees are unable to expunge
their records. Doe has identified similarly situated
groups that are treated differently.
2. Disparate treatment versus disparate impact.
The State argues that no defendant can have a criminal record expunged unless all costs and fees are
paid. For that reason, the State argues that Doe is
challenging the disparate impact of the expungement statute, not disparate treatment. The State
notes that other states have previously rejected
Doe’s argument. See, e.g., People v. Covington, 82
Cal.App.4th 1263, 98 Cal.Rptr.2d 852, 858 (2000)
(“Equal protection means only that [the defendant]
can have her conviction expunged, the same as the
wealthier defendant in her hypothetical, if and when
she pays restitution ....”); State v. Hanes, 139 Idaho
392, 79 P.3d 1070, 1070–72 (Idaho Ct. App. 2003)
(rejecting equal protection challenge to statute that
required compliance with terms of probation as a
condition for expungement, and when defendant repeatedly “failed to make timely payments for his restitution and costs of probation supervision”). Those
cases, however, addressed outstanding restitution
and costs of probation supervision, not courtappointed attorney fees.
Doe more narrowly alleges disparate treatment.
Defendants represented by privately retained attorneys are eligible for expungement even if they have
unpaid attorney fees, so long as all other court costs
have been paid, while defendants like Doe are ineligible for expungement if they owe fees for courtappointed counsel. We conclude that Doe has adequately alleged disparate treatment.

11a
3. Rational basis review. Under rational basis review, a statute “will be sustained if the classification
drawn by the statute is rationally related to a legitimate state interest.” Dudley, 766 N.W.2d at 615
(quoting Sanchez v. State, 692 N.W.2d 812, 817 (Iowa 2005)). “A classification is reasonable if it is
‘based upon some apparent difference in situation or
circumstances of the subjects placed within one class
or the other which establishes the necessity or propriety of distinction between them.’” Id. (quoting
State v. Mann, 602 N.W.2d 785, 792 (Iowa 1999)).
Doe must prove that “the relationship between the
classification and the purpose behind it is so weak
the classification must be viewed as arbitrary or capricious.” King, 818 N.W.2d at 28 (quoting Ames
Rental Prop. Ass’n v. City of Ames, 736 N.W.2d 255,
259 (Iowa 2007)). Doe “must negate every reasonable
basis upon which the classification may be sustained.” Id. (quoting Bierkamp v. Rogers, 293 N.W.2d
577, 579–80 (Iowa 1980) (en banc)). “We will not declare something unconstitutional under the rationalbasis test unless it ‘clearly, palpably, and without
doubt infringe[s] upon the constitution.’” Residential
& Agric. Advisory Comm., LLC, 888 N.W.2d at 50
(alteration in original) (quoting Racing Ass’n of Cent.
Iowa v. Fitzgerald (RACI), 675 N.W.2d 1, 8 (Iowa
2004)).
“[A]lthough the rational basis standard of review
is admittedly deferential to legislative judgment, ‘it
is not a toothless one’ in Iowa.” RACI, 675 N.W.2d at
9 (quoting Mathews v. De Castro, 429 U.S. 181, 185,
97 S.Ct. 431, 434, 50 L.Ed.2d 389 (1976)). We use a
three-part analysis when reviewing challenges to a
statute under article I, section 6 of the Iowa Constitution. Residential & Agric. Advisory Comm., LLC,

12a
888 N.W.2d at 50. “First, we must determine whether there was a valid, ‘realistically conceivable’ purpose that served a legitimate government interest.”
Id. (quoting McQuistion v. City of Clinton, 872
N.W.2d 817, 831 (Iowa 2015)). “To be realistically
conceivable, the [statute] cannot be ‘so overinclusive
and underinclusive as to be irrational.’” Id. (quoting
Horsfield Materials, Inc. v. City of Dyersville, 834
N.W.2d 444, 459 (Iowa 2013)). “Next, the court must
evaluate whether the ‘reason has a basis in fact.’”
McQuistion, 872 N.W.2d at 831 (quoting RACI, 675
N.W.2d at 7–8). “[A]lthough ‘actual proof of an asserted justification [i]s not necessary, ... the court
w[ill] not simply accept it at face value and w[ill] examine it to determine whether it [i]s credible as opposed to specious.’” LSCP, LLLP, 861 N.W.2d at 860
(second, third, fourth, and fifth alterations in original) (quoting Qwest Corp. v. Iowa State Bd. of Tax
Review, 829 N.W.2d 550, 560 (Iowa 2013)).
Doe argues that the State may not impose unduly
harsh or discriminatory terms on indigent defendants merely because they owe attorney fees to the
State instead of to a private attorney. Doe relies on
James v. Strange, which invalidated a Kansas recoupment statute on rational basis review. 407 U.S.
128, 141–42, 92 S.Ct. 2027, 2035, 32 L.Ed.2d 600
(1972). The Kansas statute withheld various debtor’s
exemptions from defendants owing court-appointed
counsel fees, most notably, restrictions on wage garnishment available to other civil judgment debtors.
Id. at 134–40, 92 S.Ct. at 2031–34. The James Court
recognized:
The indigent’s predicament under this statute comes into sharper focus when compared
with that of one who has hired counsel in his

13a
defense. Should the latter prove unable to pay
and a judgment be obtained against him, his
obligation would become enforceable under the
relevant provisions of the Kansas Code of Civil
Procedure. But, unlike the indigent under the
recoupment statute, the code’s exemptions
would protect this judgment debtor.
Id. at 136–37, 92 S.Ct. at 2032. The James Court
concluded, “[T]o impose these harsh conditions on a
class of debtors who were provided counsel as required by the Constitution is to practice ... a discrimination which the Equal Protection Clause proscribes.” Id. at 140–41, 92 S.Ct. at 2034. The Court
noted, “[S]tate recoupment statutes may betoken legitimate state interests. But these interests are not
thwarted by requiring more even treatment of indigent criminal defendants with other classes of debtors ....” Id. at 141, 92 S.Ct. at 2035.
By contrast, two years later in Fuller v. Oregon,
the Supreme Court rejected an equal protection challenge to an Oregon recoupment statute that retained
all exemptions available to judgment debtors and
gave defendants the ability to show that having to
repay legal defense costs would impose undue hardship. 417 U.S. 40, 53, 54, 94 S. Ct. 2116, 2124–25, 40
L.Ed.2d 642 (1974). The Supreme Court concluded,
The Oregon statute is carefully designed to insure that only those who actually become capable of repaying the State will ever be obliged to
do so. Those who remain indigent or for whom
repayment would work “manifest hardship” are
forever exempt from any obligation to repay.

14a
Id. at 53, 94 S.Ct. at 2124 (footnote omitted). 3 The
Oregon reimbursement statute survived constitutional challenge because the repayment obligations
were conditioned on the defendant’s reasonable ability to pay. Neither Fuller nor James adjudicated a
right to expungement; rather, both cases addressed
constitutional challenges to the validity of the court
debt.
In 2009, we addressed James and Fuller in a challenge to Iowa’s recoupment statute. Dudley, 766
N.W.2d at 614–15. We determined that “[a] cost
judgment may not be constitutionally imposed on a
defendant unless a determination is first made that
the defendant is or will be reasonably able to pay the
judgment” for court-appointed attorney fees. Id. at
615. The legislature responded by codifying the reasonable-ability-to-pay requirement in an amendment
to the recoupment statute. 2012 Iowa Acts ch. 1063,
§ 9 (codified at Iowa Code § 815.9 (2012)). The required showing of a reasonable ability to repay the
court-appointed attorney fees avoids the constitutional infirmity identified in James. See Dudley, 766
N.W.2d at 615; see also State v. Albright, 925 N.W.2d
144, 161 (Iowa 2019) (“The inclusion of the reasonable-ability-to-pay requirement makes these restitution provisions constitutional.”); cf. Thomas v. Haslam, 329 F. Supp. 3d 475 (M.D. Tenn. 2018), appeal
docketed, No. 18–5766 (6th Cir. July 27, 2018) (holding Tennessee statute revoking driver’s licenses of
The Court also determined that the legislature could properly
decline to impose repayment obligations on defendants who
were acquitted, whose trials ended in dismissal or mistrial, or
whose criminal convictions were reversed on appeal, and that
the statute did not violate the defendant’s right to counsel.
Fuller, 417 U.S. at 49–50, 53–54, 94 S.Ct. at 2123, 2125.

3

15a
indigent individuals for failure to timely pay court
debt without inquiry into ability to pay violated the
Equal Protection Clause).
Dudley was decided several months before the district court assessed the $718 in costs to Doe in September 2009, when Doe was still represented by
court-appointed counsel. Doe did not object then to
the assessment of costs or appeal the cost judgment.
Doe does not claim she can now vacate the cost
judgment based on the lack of an affirmative showing of her reasonable ability to pay in 2009. See State
v. Olsen, 794 N.W.2d 285, 289 (Iowa 2011) (holding
court lacked jurisdiction to entertain motion to reduce court debt based on lack of ability-to-pay finding because motion was filed over thirty days after
cost judgment became final). Doe makes clear she
“has requested expungement of her criminal case,
not forgiveness of the court-appointed attorney debt
owed in that case. ... Cancellation of debt is a different remedy, and something [she] has not requested.”
Doe instead makes a facial challenge to Iowa Code
section 901C.2 because the statute requires repayment of costs assessed for court-appointed attorney
fees without requiring defendants to pay off privately retained attorney fees as a condition for expungement. We determine that section 901C.2 survives rational basis review under both the Iowa and Federal
Constitutions. The legitimate State purpose here is
to encourage payment of court debt. In James, the
United States Supreme Court acknowledged the
state’s interest in recouping these costs:
Many States ... face expanding criminal dockets, and this Court has required appointed
counsel for indigents in widening classes of cas-

16a
es and stages of prosecution. Such trends have
heightened the burden on public revenues, and
recoupment laws reflect legislative efforts to recover some of the added costs.
407 U.S. at 141, 92 S.Ct. at 2034–35 (footnotes omitted). As noted, the Iowa recoupment statute passes
constitutional muster under Fuller, Dudley, and Albright.
Doe offers policy arguments favoring expungement, noting an arrest record may limit employment
opportunities that could enable defendants to pay off
the underlying court debt. An arrest record may also
limit available housing, and offenders realistically
need a place to live in order to land and keep a job.
Steady employment reduces recidivism. “Our task,
however, is not to weigh this statute’s effectiveness
but its constitutionality.” James, 407 U.S. at 133, 92
S.Ct. at 2031. Doe’s policy arguments should be directed to the legislature.
In Judicial Branch, we held it did not violate
state or federal equal protection to allow expungement for persons receiving deferred judgments but
not for those acquitted of criminal charges or whose
criminal charges were dismissed. 800 N.W.2d at 579.
Payment of court costs is typically a condition of a
deferred judgment. We concluded that the legislature could rationally favor expungement for deferred
judgments alone to incentivize payment of court
costs. Id. The same incentive is in play here.
The legislature was not constitutionally required
to allow expungement and could choose to condition
expungement on payment of court debt to motivate
defendants to pay what they owe the State. Further,
had the legislature intended to allow courts to waive

17a
the requirement that court-appointed attorney fees
be repaid prior to expungement based on a present
inability to pay, it could have said so. Indeed, the
legislature allowed waiver of another requirement,
the 180-day waiting period in subsection
901C.2(1)(a)(3), upon a showing of good cause. See
Staff Mgmt. v. Jimenez, 839 N.W.2d 640, 649 (Iowa
2013) (“[L]egislative intent is expressed by omission
as well as by inclusion, and the express mention of
one thing implies the exclusion of others not so mentioned.”). We cannot rewrite the statute to allow
waiver of court debt.
Other Iowa statutes impose consequences such as
loss of licenses for failure to pay state debt or child
support. 4 We hold the requirement to pay court costs
found in Iowa Code section 901C.2, including for
court-appointed attorney fees, is rationally related to
the government interest in collecting court debt. We
reject Doe’s equal protection challenge under the
United States and Iowa Constitutions.
IV. Disposition.
For these reasons, we affirm the district court’s
ruling denying Doe’s motion to expunge her record.
Other Iowa Code provisions provide consequences for individuals who have failed to pay certain costs. See, e.g., Iowa Code
ch. 252I (procedure for levying against accounts for failure to
pay child support); ch. 252J (procedure for revoking licenses,
including occupational, professional, business, and driver’s licenses for failing to pay child support); §§ 261.121–.127 (licensing sanctions for failure to pay student loans/noncompliance
with agreement for payment of obligation); ch. 272D (licensing
sanctions for failure to pay debt to state or local government); §
321.210A (suspension of driver’s license for failure to pay fine,
penalty, surcharge, or court costs).
4

18a
AFFIRMED.
Mansfield, Christensen, and McDonald, JJ., join
this opinion; Wiggins, J., files a dissenting opinion in
which Cady, C.J., joins; Appel, J., files a separate
dissenting opinion.
WIGGINS, Justice (dissenting).
I respectfully dissent. I would find that the requirements of Iowa Code section 901C.2(1)(a)(2)
(2018) violate the equal protection clause under the
Iowa Constitution as applied to Doe. Before I discuss
why, I think it is important to discuss the facts of
this case. On June 3, 2009, the State charged Doe
with domestic abuse assault with a dangerous weapon (an aggravated misdemeanor) and assault on a
peace officer (a serious misdemeanor) in a trial information docketed as AG228484. By a separate
docket number, the State also charged Doe with interference with official acts. Due to her indigency,
the court appointed Doe an attorney in AGR228484.
The State and Doe reached an agreement whereby
Doe was required to complete a family violence services class and, upon successful completion, the
State would dismiss the case. Nowhere in the record
is there an agreement that the indigent Doe would
pay costs, including unpaid court-appointed attorney
fees. On September 15, the State filed a notice of intent not to prosecute. The judge signed off on it the
same day. Handwritten in the notice by the county
attorney was the following: “4. Costs to the Δ.” Neither Doe nor her attorney signed off on the notice or
the dismissal order. The dismissal order never indicated that costs included court-appointed attorney
fees. The order never found that Doe as an indigent

19a
defendant had the reasonable ability to pay these
fees. See Iowa Code § 910.2(1) (requiring the court to
find a defendant had a reasonable ability to pay before assessing court-appointed attorney fees and
costs). A defendant does not have the obligation to
ask the district court to determine she had a present
inability to pay the court debt. State v. Albright, 925
N.W.2d 144, –––– (Iowa 2019). Moreover, because
the State dismissed the case, the Code does not allow
a defendant to ask the court to determine whether
she had a present inability to pay the court debt. See
Iowa Code § 910.7 (allowing an offender to petition
the court regarding restitution only “during the period of probation, parole, or incarceration”). As the majority notes, the imposition of restitution for courtappointed attorney fees can avoid constitutional infirmity only by a court finding that the offender has
the reasonable ability to pay the restitution ordered.
State v. Dudley, 766 N.W.2d 606, 615 (Iowa 2009).
Thus, I would find the relevant groups to compare
are all offenders and indigent offenders who lack the
reasonable ability to pay restitution. Applying the rational basis analysis under the Iowa Constitution,
we must determine whether the legislature had a
valid reason to treat all offenders the same without
differentiating indigent offenders who lack the reasonable ability to pay in its expungement statute.
Racing Ass’n of Cent. Iowa v. Fitzgerald, 675 N.W.2d
1, 7 (Iowa 2004). Second, we must decide whether
the legislature’s claimed reason has a basis in fact.
Id. at 7–8. Lastly, “we must consider whether the relationship between the classification”—i.e., the differences between all offenders and indigent offenders
who lack the reasonable ability to pay—“and the
purpose of the classification is so weak that the clas-

20a
sification must be viewed as arbitrary.” Id. at 8.
I can find no valid reason to treat all offenders the
same without differentiating indigent offenders who
lack the reasonable ability to pay in the expungement statute. Offenders can be required to pay restitution only after a finding of reasonable ability to
pay. Iowa Code § 910.2(1). If an offender who has a
reasonable ability to pay decides not to pay these
costs, the legislature can deny expungement because
these offenders consciously chose not to pay restitution. However, indigent offenders who lack the reasonable ability to pay do not have the ability to pay
and, thus, will never be eligible for expungement.
Therefore, I would find the classification is so weak
that it is arbitrary and violates equal protection.
To solve this problem, I would remand the case
back to the district court to determine if Doe has the
reasonable ability to pay these costs. If not, I would
remove them from the docket. If she does, I would
agree with the majority that the statute does not violate equal protection under the Iowa Constitution.
Cady, C.J., joins this dissent.
APPEL, Justice (dissenting).
I. Introduction.
In 2009, Jane Doe was indigent. The state
charged her with two crimes. The district court appointed counsel because her income was “at or below
125% of guidelines” and she was “unable to pay an
attorney.” The charges were then dismissed. All that
remains of the episode are a record of the dismissed
charges, the burden on Doe’s life created by that record, and attorney fees she owes to the state.
In the proceedings below, Doe moved to expunge

21a
the record of dismissed charges pursuant to Iowa
Code section 901C.2 (2017). Recognizing that section
901C.2(1)(a)(2) prohibits expungement unless all
court costs and fees are paid, she asserted that the
prohibition is unconstitutional under the due process
and equal protection provisions of the Federal and
Iowa Constitutions. The district court denied the motion.
On appeal, she abandons the due process argument and presents a narrow constitutional question
under the federal and state equal protection provisions. Can the legislature, in providing for expungement of criminal records, discriminate between (1)
persons who owe money to privately-retained counsel and (2) persons who owe money to courtappointed counsel incurred because they were indigent? 5
II. Rational Basis Review.
The parties agree we should evaluate the challenge under rational basis review. 6 Our approach to
Doe’s briefing does not challenge Iowa Code section
901C.2(1)(a)(2) based on discrimination between those who are
reasonably able to pay court debts, including attorney fees, and
those who are not reasonably able to pay such debts or fees.
When pressed on this point at oral argument, counsel for Doe
confirmed that the distinction drawn by Doe is between people
who owe fees to privately retained attorneys and those who owe
fees to court-appointed attorneys. Like the majority, I do not
resolve the issue unchallenged by Doe.
6
Doe does not argue that Iowa Code section 901C.2 should be
evaluated under a level of scrutiny higher than rational basis
on the grounds that it, for example, classifies based on poverty
or socioeconomic class, see, e.g., Danieli Evans Peterman, Socioeconomic Status Discrimination, 104 Va. L. Rev. 1283, 1287
n.10 (2018) (collecting authorities advocating for higher level of
5

22a
rational basis review under the Iowa Constitution
involves three steps: (1) identify the classes of similarly situated persons treated differently; (2) examine the legitimacy of the end to be achieved; and (3)
consider the rationality of the means chosen by the
legislature to achieve its desired end. See LSCP,
LLLP v. Kay-Decker, 861 N.W.2d 846, 859–60 (Iowa
2015); Racing Ass’n of Cent. Iowa v. Fitzgerald, 675
N.W.2d 1, 7–8 (Iowa 2004). Under federal law, we
ask whether the classification drawn by the statute
is rationally related to a legitimate state interest.
City of Cleburne v. Cleburne Living Ctr., 473 U.S.
432, 440, 105 S.Ct. 3249, 3254, 87 L.Ed.2d 313
(1985).
III. Discussion.
A. Similarly Situated Groups. The two groups
identified by Doe are similarly situated. In this respect, I agree with the majority. I also agree that the
similarly situated groups are treated differently.
Although both groups owe attorney fees, the debts
only prevent the latter group from expungement.
B. Legitimate End. Is there a legitimate end for
the requirement to pay court costs and fees before
gaining entitlement to expungement? The majority
suggests the legitimate purpose is to encourage
payment of court debt. I agree that encouraging
scrutiny to legislation burdening the poor), or burdens a fundamental right to counsel, see, e.g., Johnston v. Veterans’ Plaza
Auth., 535 N.W.2d 131, 132 (Iowa 1995) (explaining that the
court reviews challenged statutes burdening a fundamental
right under a higher level of scrutiny but that failure to raise
argument on level of scrutiny in initial brief waives the argument). Consequently, like the majority, I evaluate her challenge under rational basis review.

23a
payment of court debt is a legitimate goal. However,
as explained below, I am not convinced that withholding expungement is a rational way to achieve
that goal. Further, I do not think the classification
drawn between similarly situated persons rationally
serves that goal.
C. Rationality of Means Chosen to Achieve
Desired End. The legislature has not chosen a rational means to achieve its desired end. The problem
is twofold.
1. General irrationality of withholding expungement to encourage repayment of court debt. It seems
obvious that withholding expungement until court
debt is repaid is irrational and counterproductive
where a person lacks a reasonable ability to pay the
court debt. See, e.g., Thomas v. Haslam, 329
F.Supp.3d 475, 491 (M.D. Tenn. 2018), appeal docketed, No. 18–5766 (6th Cir. July 27, 2018) see also
State v. Collins, No. 43168, 1981 WL 4990, at *2
(Ohio Ct. App. May 28, 1981) (explaining that it
would be an equal protection violation to deny expungement, on the basis of outstanding court debt,
to a person adjudged indigent at the time of the ruling on expungement). But it seems to me that Doe
has not challenged section 901C.2(1)(a)(2) on the
grounds that it discriminates against those currently
lacking a reasonable ability to pay outstanding court
debts, so I join the majority in reserving judgment on
this question.
2. Irrationality of classifying among those owing
debts to private and court-appointed attorneys. I now
come to the heart of Doe’s challenge. At the outset,
the majority wrongly seems to believe the fact that
there is no constitutional right to expungement is

24a
significant. The lack of a constitutional right might
have a bearing on determining the level of scrutiny.
But level of scrutiny is not an issue in this case. All
parties agree that we should apply a rational basis
test. For rational basis review, it does not matter at
all whether the interest involved is of constitutional
dimension. We must decide if, in granting the statutory right, the legislature has drawn an unconstitutional line.
Many state and federal decisions establish that
the legislature cannot grant statutory rights that irrationally discriminate against similarly situated
persons. The right to appeal a criminal conviction
provides a good example. “It is true that the right of
appeal is purely statutory, not constitutional, and
may be granted or denied by the legislature as it determines.” Shortridge v. State, 478 N.W.2d 613, 615
(Iowa 1991) superseded by statute on other grounds,
1992 Iowa Acts ch. 1212, § 38 (codified at Iowa Code
§ 822.9 (1993)). But “once a right of appeal is provided ‘[i]t may not be extended to some and denied to
others.’” Id. (alteration in original) (quoting In re
Chambers, 261 Iowa 31, 152 N.W.2d 818, 820
(1967)); see also State v. Hinners, 471 N.W.2d 841,
843 (Iowa 1991) (“[O]nce the right of appeal has been
established, ‘these avenues must be kept free of unreasoned distinctions that can only impede open and
equal access to the courts.’” (alteration in original)
(quoting Rinaldi v. Yeager, 384 U.S. 305, 310, 86
S.Ct. 1497, 1500, 16 L.Ed.2d 577 (1966))). “When
procedures enacted by the State serve to deny one
person the right of appeal granted to another, equal
protection of the law is denied.” Shortridge, 478
N.W.2d at 615.
The same reasoning is found in federal decisions.

25a
The Federal Constitution, it is usually asserted, does
not require states to provide appellate courts or a
right to appellate review. McKane v. Durston, 153
U.S. 684, 687, 14 S.Ct. 913, 915, 38 L.Ed. 867 (1894).
Cf. Jones v. Barnes, 463 U.S. 745, 756 n.1, 103 S.Ct.
3308, 3315 n.1, 77 L.Ed.2d 987 (1983) (Brennan, J.,
dissenting) (arguing that, were the question to
squarely come before it, the Court would reassess its
prior decisions and decide that some form of review
of criminal convictions is required). But if a state establishes a right of appeal, it cannot administer its
appellate process in a discriminatory manner and
still be consistent with the Due Process and Equal
Protection Clauses of the Fourteenth Amendment.
Griffin v. Illinois, 351 U.S. 12, 18, 76 S.Ct. 585, 590,
100 L.Ed. 891 (1956) (plurality opinion).
Here, the legislature has drawn a line between
similarly situated groups that only fences out people
whose indigence required court-appointed counsel.
While anyone may owe attorney fees, it is only those
whose poverty led to court-appointed counsel that
can be denied expungement on the basis of the outstanding fees.
The key United States Supreme Court case on the
issue before us is James v. Strange, 407 U.S. 128,
130, 92 S. Ct. 2027, 2029, 32 L.Ed.2d 600 (1972). In
this case, the United States Supreme Court faced a
statute that provided extra means to collect debt
arising from appointment of counsel at state expense. Id. at 131, 92 S.Ct. at 2029–30. In the underlying criminal proceeding, the Kansas court appointed counsel to an indigent defendant pursuant to
state law. Id. at 130, 92 S.Ct. at 2029. The defendant
was obligated to repay to the state the amount expended. Id. If the debt went unpaid, a Kansas stat-

26a
ute provided for a judgment to be docketed and for
garnishment of wages or other methods of execution
authorized by state civil procedure. Id. at 131, 92
S.Ct. at 2029–30. But unlike other judgment debtors,
the person owing debt as a result of expenditures by
court-appointed counsel was not allowed exemptions
provided by the state civil procedure. Id. Thus, as
the court explained,
The indigent’s predicament under this statute comes into sharper focus when compared
with that of one who has hired counsel in his
defense. Should the latter prove unable to pay
and a judgment be obtained against him, his
obligation would become enforceable under the
relevant provisions of the Kansas Code of Civil
Procedure. But, unlike the indigent under the
recoupment statute, the code’s exemptions
would protect this judgment debtor.
Id. at 136–37, 92 S.Ct. at 2032.
A unanimous Court struck down the Kansas statute as a violation of equal protection. Id. at 141–42,
92 S.Ct. at 2035. The elements of punitiveness and
discrimination in the Kansas statute, the Court explained, violated the rights of citizens to equal
treatment under the law. Id. In its decision, the
James Court likened the case to Rinaldi, 384 U.S. at
308–09, 86 S.Ct. at 1499–1500. James, 407 U.S. at
140–41, 92 S.Ct. at 2034–35. In Rinaldi, a New Jersey statute required only indigent defendants sentenced to confinement in state institutions to reimburse the State for the costs of a transcript on appeal. 384 U.S. at 308, 86 S.Ct. at 1499. The Rinaldi
Court held, “To fasten a financial burden only upon
those unsuccessful appellants who are confined in

27a
state institutions ... is to make an invidious discrimination.” Id. at 309, 86 S.Ct. at 1500. Similarly, the
James Court explained, “[T]o impose these harsh
conditions on a class of debtors who were provided
counsel as required by the Constitution is to practice
... a discrimination which the Equal Protection
Clause proscribes.” 407 U.S. at 140–41, 92 S.Ct. at
2034.
To be sure, the James Court recognized the state’s
interest in recouping expenses but dismissed it as a
rational reason for the discrimination. Kansas had
advanced the same argument presented here by the
majority: “The challenged statute is rationally related to the end of attempting to raise money to help
defray the costs of providing appointed counsel.”
Brief of Appellant at 18, James v. Strange, 407 U.S.
128, 92 S.Ct 2027, 32 L.Ed.2d 600 (1972) (No. 71-11),
1972 WL 135745, at *18. While “recogniz[ing] that
state recoupment statutes may betoken legitimate
state interests,” the James Court explained that
“these interests are not thwarted by requiring more
even treatment of indigent criminal defendants with
other classes of debtors.” 407 U.S. at 141, 92 S.Ct. at
2035. Further, the Court said, “[s]tate recoupment
laws, notwithstanding the state interests they may
serve, need not blight in such discriminatory fashion
the hopes of indigents for self-sufficiency and selfrespect.” Id. at 141–42, 92 S.Ct. at 2035. In addition,
although the James Court acknowledged that a
state’s claim to reimbursement may take precedence
over private debts in some circumstances, “[t]his
does not mean ... that a State may impose unduly
harsh or discriminatory terms merely because the
obligation is to the public treasury rather than to a
private creditor.” Id. at 138, 92 S.Ct. at 2033.

28a
Other courts have reached similar results. For instance, in State v. Williams, 343 So.2d 35, 37–38
(Fla. 1977), the court examined a statutory provision
that provided for a perpetual lien on debts incurred
as a result of court-appointed counsel. Debtors with
other types of debts were afforded the benefit of a
limitations period. Id. This was an equal protection
violation, the court said, because “similarly situated
persons, i.e., debtors, are not treated in a similar
fashion since only the judgment debtors [with courtappointed attorney fee debts] are to be perpetually
liable for the debts incurred under this statute.” Id.
at 38.
In State v. Huth, 334 N.W.2d 485, 489–90 (S.D.
1983), the court considered a portion of a criminal
judgment and sentence revoking probation should
the defendant discharge through bankruptcy an obligation to pay indigent counsel fees and costs of
prosecution. Bankruptcy, of course, is a benefit that
a state may, but need not, offer. See United States v.
Kras, 409 U.S. 434, 446, 93 S.Ct. 631, 638, 34
L.Ed.2d 626 (1973) (“There is no constitutional right
to obtain a discharge of one’s debts in bankruptcy.”).
Yet the Huth court found an equal protection violation because “the portion of the judgment and sentence exposing appellant to revocation if he voluntarily discharges any legal obligation in bankruptcy unconstitutionally deprives appellant of rights and
remedies afforded to other individuals.” 334 N.W.2d
at 490.
Iowa Code section 901C.2(1)(a)(2) fails scrutiny
under the Equal Protection Clause of the Fourteenth
Amendment under James, 407 U.S. at 141–42, 92
S.Ct. at 2035. And the reasoning in James, along
with that in Williams, 343 So.2d at 38 and Huth, 334

29a
N.W.2d at 489–90, is persuasive in finding a violation of article I, section 6 of the Iowa Constitution.
As in all three cases, the statutes involved discriminate between debts owed because of court-appointed
counsel and debts owed to private counsel. The discrimination is harsh:
[A] member of the general public—such as an
employer doing an informal background
check—could access our computerized docket
and potentially draw inappropriate inferences
from the mere presence of a criminal file relating to an individual, even though the criminal
charges were dismissed or the individual was
acquitted.
State v. Doe, 903 N.W.2d 347, 354 (Iowa 2017).
I would simply follow what I see are the dictates
of James. Because section 901C.2(1)(a)(2) irrationally discriminates among similarly situated debtors, I
would find it invalid as applied to the situation presented by Doe. 7

The majority says Doe is bringing a facial challenge. I disagree. “A facial challenge is one in which no application of the
statute could be constitutional under any set of facts.” Honomichl v. Valley View Swine, LLC, 914 N.W.2d 223, 231 (Iowa
2018). But see Janklow v. Planned Parenthood, Sioux Falls
Clinic, 517 U.S. 1174, 1175, 116 S. Ct. 1582, 1583, 134 L.Ed.2d
679 (1996) (mem.) (Stevens, J.) (explaining that the “no set of
circumstances” test is inconsistent with the standard for deciding facial challenges and with a wide array of legal principles).
Doe takes issue with section 901C.2(1)(a)(2) insofar as it imposes a barrier to expungement for indigents who owe fees to
court-appointed counsel but not for those who owe fees to private counsel. She does not allege that the provision is unconstitutional under all its applications. In fact, Doe distinguishes
among the “court costs, fees, and other financial obligations”
7

30a
IV. Conclusion.
I would reverse the district court judgment. And
because all parties agree that Doe meets the requirements for expungement except the unconstitutional provision in Iowa Code section 901C.2(1)(a)(2),
I would remand with instructions to grant her motion for expungement.

implicated by section 901C.2(1)(a)(2). For instance, she states,
“Unlike court-appointed attorney fees, victim restitution can be
owed by both indigent defendants and defendants able to retain
counsel, and therefore does not raise the same equal protection
implications.”

31a
APPENDIX B
In the Iowa District Court for Polk County
State of Iowa
vs.
[Jane Doe]
05771 AGCR228484
Order
Matter comes on for hearing on Motion to Expunge.
Defendant was charged with Domestic Abuse Assault with a Dangerous Weapon, Assault on a Police
Officer and Interference with Official Acts on
4/29/09.
Counsel was appointed to represent her during
the proceedings. In her financial affidavit she signed
a statement that she understood she may be required to repay the State for attorney fees and costs.
As part of a plea negotiation, defendant was ordered to complete a family violence class by a certain
date and the case would be dismissed. She completed
the class and the State filed a Notice of Intent Not to
Prosecute on 9/15/09 with “costs” to the Defendant.
Court costs representing attorney fees in the amount
of $718.38 were assessed per defendant’s agreement
to pay costs in exchange for a dismissal. These fees
remain unpaid.
Defendant now seeks to expunge the record of her
dismissal pursuant to Iowa Code 901C. Iowa Code
901C.2 allows for expungement of a dismissed case
after 180 days and after all costs, fees and other fi-

32a
nancial obligations ordered by the court or assessed
by the clerk have been paid.
Attorney fees will be assessed pursuant to Iowa
Code 815.9 when a defendant is convicted as well as
if a defendant is acquitted. Iowa Code 815.9 is silent
as to reimbursement for attorney fees on a negotiated dismissal such as this case. However, unpublished case law, as well as State v. Johnson, 887
N.W.2d 178 (Iowa 2016) suggest a defendant is required to reimburse attorney fees even if a charge is
dismissed if there has been an agreement for the defendant to pay costs.
Defendant argues requiring an indigent person to
reimburse attorney fees prior to expungement, unlike an individual who hired their own counsel, violates the Constitution, specifically due process and
equal protection. The Court rejects this argument.
Defendant was made aware of the possibility of reimbursing attorney fees and that expungement could
not occur until all fees and assessed costs were paid.
This was part of the bargain defendant negotiated.
She has had several years to pay and may still obtain expungement if and when the fees are paid.
Defendant’s Motion to Expunge is denied.
IT IS SO ORDERED ON THIS DAY 07/18/18.

33a
APPENDIX C
Iowa Code § 901C.2
901C.2. Not-guilty verdicts and criminal-charge
dismissals--expungement
1. a. Except as provided in paragraph “b”, upon application of a defendant or a prosecutor in a criminal
case, or upon the court’s own motion in a criminal
case, the court shall enter an order expunging the
record of such criminal case if the court finds that
the defendant has established that all of the following have occurred, as applicable:
(1) The criminal case contains one or more criminal charges in which an acquittal was entered for
all criminal charges, or in which all criminal
charges were otherwise dismissed.
(2) All court costs, fees, and other financial obligations ordered by the court or assessed by the clerk
of the district court have been paid.
(3) A minimum of one hundred eighty days have
passed since entry of the judgment of acquittal or
of the order dismissing the case relating to all
criminal charges, unless the court finds good
cause to waive this requirement for reasons including but not limited to the fact that the defendant was the victim of identity theft or mistaken identity.
(4) The case was not dismissed due to the defendant being found not guilty by reason of insanity.
(5) The defendant was not found incompetent to
stand trial in the case.

34a
b. The court shall not enter an order expunging the
record of a criminal case under paragraph “a” unless
all the parties in the case have had time to object on
the grounds that one or more of the relevant conditions in paragraph “a” have not been established.
2. The record in a criminal case expunged under this
section is a confidential record exempt from public
access under section 22.7 but shall be made available
by the clerk of the district court, upon request and
without court order, to the defendant or to an agency
or person granted access to the deferred judgment
docket under section 907.4, subsection 2.
3. This section does not apply to dismissals related to
a deferred judgment under section 907.9.
4. This section applies to all public offenses, as defined under section 692.1.
5. The court shall advise the defendant of the provisions of this section upon either the acquittal or the
dismissal of all criminal charges in a case.
6. The supreme court may prescribe rules governing
the procedures applicable to the expungement of the
record of a criminal case under this section.
7. This section shall apply to all relevant criminal
cases that occurred prior to, on, or after January 1,
2016.

